Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      CHILD CARE AND
    DEVELOPMENT FUND:
  MONITORING OF LICENSED
   CHILD CARE PROVIDERS




                    Daniel R. Levinson
                     Inspector General

                     November 2013
                     OEI-07-10-00230
EXECUTIVE SUMMARY: CHILD CARE AND DEVELOPMENT FUND:
MONITORING OF LICENSED CHILD CARE PROVIDERS
OEI-07-10-00230

WHY WE DID THIS STUDY

The Administration for Children and Families (ACF) administers the Child Care and
Development Fund (CCDF), which provides financial assistance with child care for
approximately 1.6 million children each month. In accordance with Federal regulations,
States must certify that they have in effect, under State or local law, requirements
designed to protect the health and safety of children receiving CCDF subsidies and to
monitor these requirements. Such certification helps ensure that Federal money is used to
pay for care that meets health and safety requirements.

HOW WE DID THIS STUDY

For Federal fiscal years (FYs) 2010 through 2011, we reviewed each State’s licensing and
health and safety requirements and surveyed State staff responsible for licensing, health
and safety, and monitoring providers for compliance. We selected five States (California,
Florida, Illinois, Ohio, and Texas) representing 35 percent of all children in the CCDF
program in FY 2009 for review. We obtained information on the results of activities to
monitor child care providers through documentation review and discussions with State
staff. We surveyed ACF staff to determine the extent to which ACF monitors States’
licensing and health and safety requirements.

WHAT WE FOUND

Federal law requires States to have health and safety requirements in three areas:
(1) the prevention and control of infectious diseases, (2) building and physical premises
safety, and (3) minimum health and safety training. All States complied with the Federal
requirement to have health and safety requirements for licensed child care providers in
these three areas. However, States’ monitoring requirements did not always meet ACF’s
recommendations for background screenings or the recommended standards for
unannounced inspections found in the book entitled Caring for Our Children: National
Health and Safety Performance Standards; Guidelines for Out-of-Home Child Care
Program. In selected States we reviewed, monitoring of licensed providers was not
conducted in accordance with States’ own requirements. Moreover, ACF did little to
monitor how States were overseeing CCDF providers.

WHAT WE RECOMMEND

We recommend that ACF seek authority to develop health and safety standards and
ensure that States’ requirements meet them, develop requirements for States to conduct
mandatory background screenings and periodic unannounced inspections, conduct
periodic reviews of States’ compliance with their own licensing requirements related to
minimum health and safety standards, and ensure that State plans comply with health and
safety requirements. Many of our concerns are addressed in ACF’s Notice of Proposed
Rulemaking issued on May 20, 2013. ACF concurred with all five of our
recommendations. 
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................12 

           All States complied with the Federal requirement to have health 

           and safety requirements for licensed child care providers in three 

           basic areas ......................................................................................12 

           States’ monitoring requirements did not always meet ACF’s 

           recommendations for background screening or the 

           recommended National Standards for unannounced inspections ..13 

           In selected States, monitoring was not conducted in accordance
           with States’ own requirements .......................................................14 

           ACF did little to monitor how States were overseeing 

           CCDF providers .............................................................................16

Conclusion and Recommendations ............................................................18 

Agency Comments and Office of Inspector General Response.................19 

Appendixes ................................................................................................21 

           A: Point Estimates and Confidence Intervals Based on Case 

           File Reviews...................................................................................21 

           B: State-Reported Specific Requirements ....................................23 

           C: Agency Comments ...................................................................29 

Acknowledgments......................................................................................33 

                   OBJECTIVES
                   For the Child Care and Development Fund (CCDF) grant program,
                   1.	 determine the extent to which States’ child care licensing and health
                       and safety requirements comply with Federal requirements,
                   2.	 determine the extent to which States’ monitoring requirements for
                       licensed providers meet Administration for Children and Families
                       (ACF) recommendations and National Standards,
                   3.	 identify results of selected States’ monitoring of child care providers
                       related to those States’ licensing and health and safety requirements,
                       and
                   4.	 assess ACF’s monitoring of States’ oversight of child care providers.

                   BACKGROUND
                   ACF is the operating division within the Department of Health and Human
                   Services (HHS) that administers CCDF.1, 2 CCDF is authorized by the
                   CCDBG Act and section 418 of the Social Security Act. In fiscal year
                   (FY) 2012, Congress appropriated $5.2 billion through the CCDBG Act to
                   help low-income families in States, territories, and tribes obtain child care
                   so that parent(s) could work or participate in training or education.
                   CCDF provides financial assistance with child care for approximately
                   1.6 million children each month. A child is eligible to participate in CCDF
                   if:
                            (1) the child is under 13 years old (or, at the State’s option, if the
                            child is under the age of 19 and physically or mentally unable to
                            care for himself or under court supervision);
                            (2) the child lives with a family whose income does not exceed
                            85 percent of the State’s median income for a family of the same
                            size; and
                            (3) the child resides: (a) with a parent who is working or attending
                            a job training or educational program or (b) with a parent other


                   1
                     ACF, Fundamentals of CCDF Administration. Accessed at http://www.acf.hhs.gov/ on
                   March 23, 2011. 

                   2
                     The Child Care and Development Block Grant Act of 1990 (the CCDBG Act)

                   (§ 5082(2) of the Omnibus Reconciliation Act of 1990, P.L. 101-508, Nov. 5, 1990) 

                   established the program (42 U.S.C. § 9858, et seq.). The CCDBG Amendments of 1996

                   (The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, 

                   P.L. 104-193, § 603, Aug. 22, 1996) reauthorized the program.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)       1
                            than the one described in (a) and the child needs or receives
                            protective services.3
                   The parent of an eligible child who receives or is offered child care
                   services may either (1) enroll the child with an eligible child care provider
                   with which the State has contracted or provided grant funds for such
                   services or (2) receive a certificate to obtain services from a variety of
                   providers. Categories of eligible providers include:
                       	 center-based child care provider—defined as a provider licensed or
                          otherwise authorized to provide child care services in a
                          nonresidential setting,
                       	 group home child care provider—defined as two or more
                          individuals who provide child care services in a private residence
                          other than the child’s residence,4
                       	 family home child care provider—defined as one individual as the
                          sole caregiver in a private residence other than the child’s
                          residence,5 and
                       	 in-home child care provider—defined as one individual who
                          provides child care services in the child’s own residence.6
                   In FY 2011, approximately 505,000 child care providers in 50 States and
                   the District of Columbia (States) provided child care funded through
                   CCDF. 7, 8 In the same FY, two types of child care providers—center-based
                   providers and family home providers—together covered, on average,
                   89 percent of children in CCDF-funded care.9




                   3
                     45 CFR § 98.20. The regulations at 45 CFR § 98.2 state that “parent means a parent by

                   blood, marriage or adoption and also means a legal guardian, or other person standing in

                   loco parentis.”

                   4
                     Eleven States did not have this provider type for FYs 2010–2011: the District of 

                   Columbia, Indiana, Louisiana, Maryland, Maine, North Carolina, New Jersey, Virginia, 

                   Vermont, Washington, and Wisconsin.

                   5
                     For center-based, group home, and family home child care providers, generally 

                   providers are allowed to provide service only for less than 24 hours per day. 

                   6
                     45 CFR §§ 98.30(e)(1) and 98.2 (Definitions). 

                   7
                     Table 7, CCDF, Preliminary Estimates of Number of Child Care Providers Receiving 

                   CCDF Funds (FFY [Federal fiscal year] 2011). Accessed at http://acf.hhs.gov on

                   January 15, 2013. All FYs referred to in this report are Federal fiscal years. 

                   8
                     Although there are tribal and territorial programs in CCDF, we are looking only at State
                   programs. Tribal programs are subject to different legal requirements and policies.
                   9
                     Table 3, CCDF, Average Monthly Percentages of Children Served by Types of Care
                   (FFY 2009). Accessed at http://acf.hhs.gov on January 15, 2013.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)             2
                   Federal Requirements for State Participation in CCDF
                   For a State to be eligible to receive funds through CCDF, ACF must
                   review and approve a State plan every 2 years.10, 11
                   Through the State plan, each State must certify that it has:
                        	 licensing requirements for child care services,12, 13
                        	 requirements designed to protect the health and safety of children
                           being cared for by those who provide services under the Act,14 and
                        	 procedures to ensure that child care providers comply with 

                           applicable health and safety requirements.15

                   Licensing Requirements. Each State is required to provide a detailed
                   description of its licensing requirements.16 The Health Resources and
                   Services Administration’s (HRSA) National Resource Center for Health
                   and Safety in Child Care and Early Education (NRC) provides an online
                   listing of the licensing and regulatory requirements for child care in the
                   51 States. 17 ACF accepts the NRC compilation as fulfilling the statutory
                   requirement. According to ACF guidance, however, States should verify
                   that the NRC listing accurately reflects their requirements.18


                   10
                      Each State Plan includes information about the State’s CCDF program with regard to 

                   the way in which it administers the program, the way in which the program was 

                   developed, child care services offered, parental rights and responsibilities, activities and

                   services to improve the quality and availability of child care, and health and safety 

                   requirements. Although section 658I(b)(1) of the CCDBG Act specifies the Secretary of 

                   HHS as responsible for reviewing and approving State plans, that responsibility has been

                   delegated to ACF. Per section 658I(a)(3) of the CCDBG Act, ACF is also required to

                   provide technical assistance to States in carrying out the requirements of the Act.

                   11
                      45 CFR § 98.17.

                   12
                      Section 658E(c)(2)(E) of the CCDBG Act. The Act states that licensing requirements do 

                   not have to apply to all types of providers. Providers commonly exempted from licensing

                   include relatives; in-home child care providers; and some center-based child care 

                   providers, such as school-based and/or school-age programs, centers that operate 

                   part-time or on a drop-in basis, and centers operated by religious organizations. Taken 

                   from ACF, Child Care and Development Fund Report of State and Territory Plans 

                   FY 2010–2011. Accessed at http://acf.hhs.gov on January 15, 2013.

                   13
                      45 CFR § 98.2 defines licensing or regulatory requirements as requirements necessary 

                   to legally provide child care services in a State or locality, including registration 

                   requirements established under State or local law.

                   14
                      Section 658E(c)(2)(E) and (F) of the CCDBG Act.

                   15
                      Section 658E(G) of the CCDBG Act.

                   16
                      Section 658E(c)(2)(E) of the CCDBG Act. 

                   17
                      Under contract from HRSA’s Maternal and Child Health Bureau, this database is 

                   maintained by the University of Colorado Health Sciences Center School of Nursing.

                   The NRC database can be accessed at http://nrckids.org/. 

                   18
                      ACF, CCDF State and Territories Plan Preprint Guidance, FFY 2010–2011. Accessed 

                   at http://www.acf.hhs.gov/ on February 1, 2011.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)               3
                   Health and Safety Requirements. Each State must certify that it has in
                   effect under State or local law requirements designed to protect the health
                   and safety of children.19 Federal law requires States to have health and
                   safety requirements in three areas: (1) the prevention and control of
                   infectious diseases (including by immunizations), (2) building and
                   physical premises safety, and (3) minimum health and safety training
                   appropriate to the provider setting.20
                   States have discretion in how they meet health and safety requirements.
                   ACF acknowledged in July 2012 that because the CCDBG Act does not
                   specifically define health and safety standards, some States lack
                   requirements for such things as criminal background checks, training on
                   first aid and cardiopulmonary resuscitation (CPR), and safe sleep
                   practices.21 In testimony before the Senate Subcommittee on Health,
                   Education, Labor, and Pensions, Linda Smith, the Deputy Assistant
                   Secretary and Inter-Departmental Liaison for Early Childhood
                   Development, noted that
                          … in too many cases, it takes well-publicized deaths in child care
                          settings to prompt State action to strengthen their licensing
                          standards to better address children’s safety. These tragic losses
                          emphasize the importance of health and safety standards and
                          building a strong foundation for high quality care.
                   Monitoring and Compliance. ACF accepts States’ licensing descriptions
                   as proof that they effectively enforce licensing requirements. In its plan,
                   each State is required to certify it has procedures to ensure that child care
                   providers comply with applicable health and safety requirements.22
                   The CCDBG Act requires Federal monitoring of each State’s compliance
                   with its plan. 23 Although the Act does not require States to (1) conduct
                   routine unannounced inspections of child care providers, (2) perform
                   background screenings on providers (or their family members), or
                   (3) require providers to report serious injuries that occur while a child is in
                   care, ACF guidance instructs each State to indicate whether it performs
                   these three activities. States are also asked to describe any other methods


                   19
                        Section 658E(c)(2)(F) of the CCDBG Act. 

                   20
                        Section 658E(F)(i)–(iii) of the CCDBG Act. 

                   21
                      Statement of Linda Smith, Deputy Assistant Secretary for Early Childhood Development, 

                   ACF, Child Care and Development Block Grant Reauthorization: Hearing Before the U.S.
                   Senate Subcommittee on Children and Families, Committee on Health, Education, Labor and
                   Pensions, 112th Cong. (2012).
                   22
                      Section 658E(G) of the CCDBG Act.
                   23
                        Section 658I(b)(1) of the CCDBG Act.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)              4
                   they use to enforce health and safety requirements (e.g., requiring that a
                   certain percentage of providers be inspected annually and specifying the
                   length of time between inspections).24
                   ACF-Recommended Practices
                   Although the CCDBG Act does not require criminal background
                   screenings, ACF released an information memorandum on
                   September 20, 2011, to all States, child care licensing agencies, child care
                   resource and referral agencies, and other interested parties that strongly
                   recommended comprehensive background screenings for all providers
                   who care for children receiving CCDF subsidies. A comprehensive
                   criminal background screening, in ACF’s guidance, includes all of the
                   following:
                        	 using fingerprints for checks of State criminal history records,
                        	 using fingerprints for checks of Federal Bureau of Investigation
                           (FBI) criminal history records,
                        	 checking the child abuse and neglect registry, and
                        	 checking the sex offender registries.25
                   Additionally, ACF revised the FY 2012–2013 State Plan guidance to
                   highlight areas of interest to the Federal Government, including a section
                   addressing the types and frequency of background screenings that States
                   require for child care providers and other child care workers.26
                   National Health and Safety Performance Standards
                   The CCDBG Act and implementing regulations contain no specific health
                   and safety standards for child care providers that States must follow.
                   Instead, ACF partners with HRSA to disseminate the book entitled Caring
                   for Our Children: National Health and Safety Performance Standards;
                   Guidelines for Out-of-Home Child Care Programs, funded by a HRSA
                   grant. In this report, we refer to the standards in this book as the National
                   Standards. According to industry experts, the National Standards
                   represent the best evidence, expertise, and experience on quality health
                   and safety practices and policies that should be followed in early care and




                   24
                      ACF, CCDF State and Territories Plan Preprint Guidance, FFY 2010–2011.
                   Accessed at http://www.acf.hhs.gov/ on February 1, 2011. 

                   25
                      ACF, Log No: CCDF-ACF-IM-2011-05. Guidance released to States by the Office of 

                   Child Care related to criminal background checks, September 20, 2011.

                   26
                      ACF, CCDF State and Territories Plan Preprint Guidance, FFY 2012–2013.
                   Accessed at http://www.acf.hhs.gov/ on October 15, 2012.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)     5
                   education settings.27 The National Standards include guidelines on facility
                   inspections and monitoring.
                   According to the National Standards, every State should require its
                   licensing inspectors to conduct onsite inspections to measure compliance
                   with licensing rules prior to issuing an initial operating license to a child
                   care center or family home. The licensing agency should conduct at least
                   two inspections per year of each center and family home. At least one of
                   the inspections should be unannounced; more unannounced inspections
                   should be conducted if needed for the facility to achieve satisfactory
                   compliance. Routine unannounced inspections are a means for States to
                   determine whether providers are operating healthy and safe environments
                   for children who qualify for public funds.
                   Related Studies
                   In 2010, the Office of Inspector General (OIG) identified provider
                   noncompliance with health and safety requirements in Head Start, another
                   ACF program.28 Of the 24 Head Start grantees that OIG reviewed, none
                   complied fully with Federal Head Start or State requirements to protect
                   children from unsafe materials and equipment. In addition,
                   21 of 24 grantees did not comply fully with Federal Head Start or State
                   requirements to conduct background screenings, recurring background
                   screenings, checks of child care exclusion lists, or checks of child abuse
                   and neglect registries or with requirements to document those records
                   checks.
                   A 2011 Government Accountability Office (GAO) report found cases of
                   sex offenders working for child care providers or living in homes where
                   child care was provided. GAO found programs that employed offenders
                   while receiving Federal Head Start or CCDF funds.29
                   In 2012, the National Association of Child Care Resource & Referral
                   Agencies (NACCRRA) issued white papers that identified vulnerabilities
                   to children’s health and safety.30 NACCRRA found that only 12 States

                   27
                      American Public Health Association, American Academy of Pediatrics, NRC, Caring
                   for Our Children: National Health and Safety Performance Standards; Guidelines for
                   Out-of-Home Child Care Programs, 2011.
                   28
                      OIG issued 24 reports on health and safety compliance in Head Start facilities
                   following site visits conducted in FY 2010. Accessed at
                   https://oig.hhs.gov/oas/reports/region10/11102503.asp on December 6, 2012.
                   29
                      GAO, Child Care: Overview of Relevant Employment Laws and Cases of Sex
                   Offenders at Child Care Facilities, GAO-11-747. Accessed at http://www.gao.gov on
                   October 12, 2012.
                   30
                      NACCRRA, Effective Inspections Policies Promote Children’s Safety and Healthy
                   Development in Child Care, and Background Checks: It Is Time To Protect Children in
                   Child Care. Accessed at http://www.naccrra.org on October 12, 2012.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)           6
                   required staff in child care centers to have comprehensive background
                   screenings, and only 10 States required family home providers to have
                   comprehensive background screenings. They also found that only
                   8 States conducted monitoring inspections at least quarterly for centers
                   and that 20 conducted inspections of centers once a year or less frequently.
                   Proposed Regulations
                   Subsequent to our study period, ACF issued a Notice of Proposed
                   Rulemaking (NPRM) that included regulations to strengthen health and
                   safety requirements and oversight of license-exempt providers.31 These
                   regulations, as written, impose more stringent health and safety
                   requirements on center-based, group home, and family home providers
                   who care for children receiving CCDF subsidies, including license-exempt
                   providers. (States, however, have the option to exempt in-home providers
                   and continue to have the option to exempt relatives from some or all of
                   these requirements.)
                   Licensing Requirements. ACF proposes requiring a description of any
                   exemptions to licensing requirements and a rationale for such exemptions.
                   Health and Safety Requirements. ACF proposes minimum requirements
                   for “building and physical premises safety,” including:
                          	 Comprehensive background checks on child care providers. These
                             checks must include use of fingerprints for checks of State criminal
                             history records; use of fingerprints for checks of FBI criminal
                             history records; clearance through the child abuse and neglect
                             registry, if available; and clearance through sex offender registries,
                             if available.
                          	 Compliance with State and local fire, health, and building codes
                             for child care. These codes must include the ability to evacuate
                             children in the case of an emergency. Compliance must be
                             determined before child care providers can serve children receiving
                             CCDF assistance.
                          	 Emergency preparedness and response planning, including
                             provisions for evacuation and relocation, sheltering in place, and
                             family reunification.
                   ACF proposes adding a list of minimum health and safety preservice and
                   orientation training, appropriate to the provider setting and ages of
                   children served, including, but not limited to, first aid, CPR, and safe sleep
                   practices.

                   31
                        78 Fed. Reg. 29441 (May 20, 2013). Comments were due by August 5, 2013.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)    7
                   Monitoring and Compliance. ACF proposes requiring that all providers
                   who care for children receiving CCDF subsidies be subject to specific
                   monitoring for compliance with health and safety requirements. The
                   State’s procedures:
                       	 must include unannounced onsite monitoring,
                       	 may not rely solely on child care providers’ self-certifying their
                          compliance with health and safety requirements without
                          documentation or other verification that requirements have been
                          met,
                       	 must require an unannounced visit in response to a complaint
                          pertaining to the health and safety of a child in the care of a
                          provider paid with CCDF funds, and
                       	 must require child care providers paid with CCDF funds to report
                          to a designated State entity any serious injuries or deaths of
                          children occurring in child care.

                   METHODOLOGY
                   For FYs 2010 and 2011, we used multiple data sources and approaches to
                   determine and describe (1) each State’s licensing and health and safety
                   requirements, (2) the results of selected States’ monitoring activities, and
                   (3) ACF’s monitoring of compliance with States’ licensing and health and
                   safety requirements.
                   Scope
                   We included all 51 States in an initial survey about child care licensing
                   and health and safety requirements. We selected a purposive sample of
                   five States representing 35 percent of children served in licensed settings
                   by the CCDF program in FY 2009. Licensing is State permission required
                   to operate a child care facility, which includes meeting specific standards
                   depending on the provider type. Some States may call their regulatory
                   processes “certification” or “registration”; for the purpose of this study,
                   the terms “licensing” or “licensed” are used to represent all regulatory
                   processes. Although a given State (e.g., New York) may have received
                   more funding than the sampled States, we selected the States that served
                   the most children in licensed settings. We conducted an indepth review to
                   determine those States’ policies and practices for monitoring child care
                   providers’ compliance with licensing and health and safety requirements.
                   We also reviewed the results of the monitoring activities conducted by the
                   five States. We excluded in-home providers from our sample because
                   most States do not require the licensing of in-home providers paid with
                   CCDF funds. We excluded group home providers from our 51-State


Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   8
                   review because they represent only 5 percent of children in CCDF-funded
                   care.
                   Sample Selection
                   We selected a purposive sample of five States (California, Florida, Illinois,
                   Ohio, and Texas) representing 35 percent of all children receiving care
                   from licensed providers in the CCDF program in FY 2009. We obtained a
                   list of all potential CCDF child care providers in FYs 2010 and 2011 and
                   selected a stratified random sample of 125 licensed providers from each of
                   the 5 States. See Table 1 for numbers of providers by State and type of
                   provider.
                   Table 1: CCDF-Funded Licensed Child Care Providers
                   in Sampled States
                                                              Licensed        Licensed
                                          Licensed                                                   Total
                                                                 Group           Family
                    State             Center-Based                                               Licensed          OIG Sample
                                                                 Home             Home
                                         Providers                                               Providers
                                                              Providers       Providers

                    California                   4,910             6,518          13,853             25,281                   125
                    Florida                      5,732               n/a*          3,661              9,393                   125
                    Illinois                     2,637               364           8,125             11,126                   125
                    Ohio                         4,266                287        8,489**             13,042                   125
                    Texas                        6,620                807          1,771              9,198                   125
                      Total                     24,165             7,976          35,899             68,040                   625
                   *Florida does not have the group home provider type. 

                   **In Ohio, family homes are certified. Certification in Ohio is a form of regulation under a process that is

                   very similar to licensing; because these providers are still regulated, we consider them to be licensed. 

                   Source: OIG analysis of ACF data, 2011.



                   Data Collection
                   State Licensing Requirements, Health and Safety Requirements, and
                   Monitoring Activities. To determine the licensing and health and safety
                   requirements for child care providers in each State, we obtained listings
                   from the NRC Web site and obtained State plans from State Web sites or
                   ACF. We reviewed the licensing and health and safety information to
                   identify the differences in licensing requirements by provider type and
                   across States.
                   We then surveyed in all 51 States the State staff who are responsible for
                   licensing, health and safety, and monitoring. We used the survey results to
                   verify how States’ licensing and health and safety requirements apply to
                   different provider types within a State. We also used the survey results to
                   identify how each State reports that it monitors providers for compliance
                   with licensing and health and safety requirements.
                   Monitoring of Individual Providers. We requested documentation from
                   the five selected States to determine whether they comply with their own
                   policies and procedures for monitoring child care providers.
                   Documentation included licensing inspection reports, reported findings,


Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                      9
                   parental or other complaints, background screening verification lists, and
                   proof of provider training. We worked with State staff to identify the
                   specific types of documents used to support oversight.
                   We received responses from the States for all 625 providers included in
                   our sample. In Florida, we excluded 46 providers from our sample
                   because they had closed prior to our review period or were exempt from
                   licensing requirements and excluded an additional 18 providers from our
                   sample because they were under the purview of local licensing districts
                   with unique standards.32 This resulted in an adjusted sample size of 561.
                   ACF Monitoring Activities. We surveyed ACF headquarters and regional
                   office staff about their monitoring of States’ licensing and health and
                   safety requirements. We asked for documentation supporting the extent to
                   which ACF verifies State standards. We also asked about methods that
                   ACF uses to review States’ CCDF plans for policies and procedures
                   related to monitoring of licensing and health and safety requirements.
                   Analysis
                   We used information from the NRC Web site, the collected State plans,
                   and the State surveys to determine States’ compliance with Federal
                   licensing and health and safety requirements. We used these same data
                   sources to compare States’ practices to the ACF and National Standards
                   recommendations related to background checks and unannounced visits,
                   respectively.
                   We compared the monitoring information for the 561 sampled child care
                   providers against the States’ own standards and the National Standards to
                   determine the extent to which the States met these standards. If sampled
                   providers were not operating during our entire review period
                   (FYs 2010 through 2011), we applied only those standards that applied
                   while they were operational (e.g., if providers had been open for less than
                   a year, we would not expect a yearly followup inspection if one was
                   required by the State). When possible, we projected our results for the
                   sampled providers to the population of all licensed CCDF providers in
                   FYs 2010 and 2011 in each of the five States or for the five States
                   combined. Estimates and 95-percent confidence intervals for these
                   projections are in Appendix A.
                   We used the ACF survey results to determine the extent to which ACF
                   monitored States’ compliance with licensing requirements and health and
                   safety requirements.

                   32
                    In 7 of Florida’s 67 counties, licensing is overseen by the county, rather than by the
                   Department of Children and Families.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)               10
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   11
                   FINDINGS
                   All States complied with the Federal requirement to
                   have health and safety requirements for licensed child
                   care providers in three basic areas
                   All of the 51 States had requirements designed to protect the health and
                   safety of children served by licensed child care providers in 3 areas:
                   (1) prevention and control of infectious disease, (2) building and physical
                   premises safety, and (3) minimum health and safety training. The Act
                   does not contain minimum requirements within the three areas; States
                   reported various methods through which they met Federal requirements.
                   State licensing regulations provide a framework for ensuring health and
                   safety in three areas for licensed child care providers. States reported
                   meeting the requirements in many different ways. See Table 2 for an
                   example of how two States met Federal health and safety requirements for
                   licensed child care providers—one with many requirements and one with
                   fewer requirements.
                   Table 2: Examples of Two States’ Reported Health and Safety Requirements
                   for Licensed Providers
                    Federal
                    Health and                                          State A                                       State B
                    Safety
                    Requirement

                                                      1. Child immunizations                         1. Child immunizations
                    Prevention
                                                2. Physical exam for children                 2. Physical exam for children
                    and Control
                                               3. Physical exam for providers       3. No admittance if serious transmissible
                    of Infectious
                                           4. Tuberculosis check for providers                    infection or communicable
                    Disease
                                                          5. Health care plan                               diseases present
                                                           1. Fire inspection
                    Building and                       2. Building inspection                             1. Fire inspection
                    Physical               3. Environmental health inspection                        2. Building inspection
                    Premises                             4. Safe sleep policy               3. Lead-safe or lead-free facility
                    Safety                                   5. Smoking ban
                                                     6. Transportation policy
                                         1. CPR certification every 12 months
                                                                                                1. Current CPR certification
                                              2. First aid certification every 36
                    Health and                                                               2. Current first aid certification
                                                                          months
                    Safety                                                                      3. Completion of medication
                                            3. Twelve annual hours of training
                    Training                                                           administration training by at least one
                                            4. Bloodborne pathogens training
                                                                                                    center employee present
                                                  within 6 months of initial hire
                   Source: OIG Survey of States, 2011.

                   We considered all States to be compliant with Federal health and safety
                   requirements for licensed child care providers because they reported at
                   least one licensing regulation related to each requirement. ACF does not
                   distinguish between States that have instituted many regulations in a given
                   area and States that have fewer regulations per area.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                             12
                   States’ monitoring requirements did not always meet
                   ACF’s recommendations for background screening
                   and the recommended National Standards for
                   unannounced inspections
                   ACF requires States to certify that they have procedures to ensure that
                   licensed child care providers comply with all applicable health and safety
                   requirements. A principal way that States enforce health and safety
                   requirements of licensed providers is through monitoring for compliance
                   with State regulations. States reported that monitoring consists largely of
                   background screenings and inspections, yet these do not always meet
                   ACF’s recommendations or the recommended National Standards.
                   Although all States reported screening child care workers,
                   many reported not checking FBI fingerprint databases or
                   sex-offender registries in accordance with ACF’s
                   recommendations
                   Not all States check all sources that ACF recommends in its
                   September 2011 memorandum. Given the lack of a national system for
                   checking criminal history and child abuse records, multiple checks are
                   necessary. As part of the 2011 memorandum, ACF strongly encouraged
                   States to conduct a comprehensive criminal background screening that
                   includes a fingerprint-based check of State criminal records,
                   fingerprint-based check of FBI criminal records, and a child-abuse registry
                   check for all prospective child care staff and for any other persons who
                   have regular access to children in these child care settings. Only 15 States
                   reported performing checks sufficient to be considered comprehensive
                   background screenings for both center-based and family home providers.
                   Even in States that reported checking all of ACF’s recommended sources,
                   the checks did not always apply to all child care staff. Michigan reported
                   that fingerprint-based checks of FBI criminal records were required for
                   directors and owners, but not for child care providers. In Washington
                   State, fingerprint-based checks of FBI criminal records are done on
                   potential providers only if they have lived 3 years or less in the State.
                   The sources least often checked by States were FBI criminal records and
                   sex-offender registries. See Table 3 for sources that States reported
                   requiring for background screenings and Appendix B for specific
                   requirements States reported related to the sources checked and
                   individuals subject to background screenings.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   13
                   Table 3: Number of States Checking Background Screening Sources
                    Source for Background Screening          Number of States        Number of States
                                                           Checking Source for     Checking Source for
                                                                 Center-Based            Family Home
                                                                     Providers               Providers

                    State Criminal Records                                    49                   48
                    FBI Criminal Records                                      35                   33
                    Child-Abuse Registry                                      45                   48
                    Sex-Offender Registry                                     28                   28
                   Source: OIG survey of States, 2011.

                   Twenty-one States did not report requirements for routine
                   unannounced inspections that met recommended National
                   Standards
                   Routine unannounced inspections are one way to determine whether
                   providers are operating healthy and safe environments for children who
                   qualify for public funds. The National Standards recommend that each
                   provider undergo at least two inspections each year, with at least one of
                   the inspections being unannounced. Ten States failed to meet that
                   standard for center-based providers and 21 failed to meet it for family
                   home providers.33
                   Although some States require routine unannounced inspections, their
                   frequency did not meet the National Standards. Additionally, two States
                   did not require any unannounced inspections for family home providers
                   and one State did not require any unannounced inspections for
                   center-based providers. See Appendix B for specific requirements States
                   reported related to the frequency of routine unannounced inspections.

                   In selected States, monitoring was not conducted in
                   accordance with States’ own requirements
                   States did not always conduct unannounced inspections when
                   required by State law, missing opportunities to identify and
                   correct health and safety deficiencies
                   Four of the five selected States required unannounced inspections at least
                   annually to ensure provider compliance with State licensing requirements,
                   yet they failed to comply with their own requirements. None of the four
                   States conducted all the required unannounced inspections.34 Texas and

                   33
                     Although the National Standards do not differentiate among provider types, States have
                   different requirements for different types of child care providers. Thus, the findings of
                   this report differentiate between center-based providers and family home providers.
                   34
                     Because our review period included only 2 years, we could not review California’s
                   requirement for an unannounced inspection every 5 years.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)            14
                   Florida had the lowest noncompliance rates, missing less than 1 percent
                   and 10 percent of required inspections, respectively. Illinois had the
                   highest noncompliance rate, missing 82 percent of its required inspections;
                   it conducted many inspections, but failed to record whether they were
                   unannounced. See Table 4 for details on States’ requirements for
                   unannounced monitoring inspections and percentages of missed
                   inspections and Appendix A for the confidence intervals.
                   Table 4: Unannounced Monitoring Inspections in Five States
                                                 Requirements for                           Percentage of
                    State                  Unannounced Monitoring                      Missed Inspections
                                                      Inspections                          FYs 2010–2011
                    California                                    Every 5 years                                n/a

                                                  Every 4 months for centers;
                    Florida                                                                                  10.3%
                                             every 6 months for family homes

                    Illinois                                           Annually                              81.6%

                    Ohio                                               Annually                              25.6%

                                                         Annually for centers;
                    Texas                                                                                     <1%
                                               every 2 years for family homes
                   Source: OIG analysis of State data and documents related to inspection requirements and
                   compliance, 2012.



                   When States do not conduct monitoring, they miss opportunities to
                   identify deficiencies and recommend provider improvements. Across all
                   five States that conducted one or more inspections during our review
                   period, States identified deficiencies for 62 percent of providers. Of all
                   providers with at least 1 inspection, 11 percent had more than
                   10 deficiencies. Examples of deficiencies cited during unannounced
                   monitoring inspections included: number of children in care significantly
                   differing from the number of children recorded on the sign in/sign out log,
                   not enough staff for the license capacity, expired CPR and first aid
                   certification, and bleach in an unlocked cabinet in the classroom.
                   States have different methods of categorizing the number and severity of
                   deficiencies. For example, in Florida a single deficiency in the area of
                   “Outdoor Equipment” could include peeling paint on play equipment (a
                   “Class 2” violation) and ill-maintained ground cover under play
                   equipment (a “Technical Support” violation). In Texas, the area of safety
                   was more narrowly defined. For example, the State found a provider to
                   have two deficiencies: one in the area of “Safety—Areas Free From
                   Hazard” for a red tricycle missing a pedal (“Medium High” weight) and
                   another in “Safety Requirements for Active Play Equipment” for a toy car
                   that had a crack on the seat (“High” weight).




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                       15
                   States missed opportunities to identify unscreened individuals
                   or individuals with expired background screenings
                   None of the five sampled States adhered to their own frequency
                   requirements for reviewing providers’ compliance with State requirements
                   for background screening. When States did review providers’ compliance
                   in this area, they found that 22 percent of providers had not initiated or
                   renewed their background screenings as required by the State. In all five
                   States we reviewed, a single deficiency related to background screening
                   could account for multiple individuals, making it difficult to determine the
                   extent to which individuals have missing or expired background
                   screenings.
                   Deficiencies in background screenings ranged from overdue screenings to
                   unscreened persons living in the house. Texas had the highest
                   noncompliance rate for reviewing background screenings when required
                   by State law, but Texas also required the most frequent reviews. In
                   Florida, Illinois, and Ohio, the States review provider compliance with
                   background screening as part of their routine inspections. Therefore,
                   when the States failed to conduct routine inspections, provider compliance
                   with the background screening could not be checked by the State. See
                   Table 5 for details on States’ reviews of provider compliance with
                   requirements for background screening and for details on States’ missing
                   reviews; see Appendix A for the confidence intervals.
                   Table 5: Background Screening Monitoring in Five States
                                                                                                         Percentage of
                                         Inspections During Which Monitoring
                    State                                                                             Missing Reviews
                                         of Background Screening Is Required
                                                                                                       FYs 2010–2011
                                                                   Prelicensing inspections,
                    California                            annual/random/5-year inspections,                               7.5%
                                                           followup inspections (if pertinent)

                                               License renewal inspections (all individuals),
                    Florida                                                                                               11.0%
                                                      routine inspections (new employees)

                    Illinois                          Every unannounced annual inspection                                 13.1%

                                             All inspections except inspections for a specific
                    Ohio                                                                                                  8.4%
                                                                                     purpose

                    Texas                                                       Any inspection                            20.3%
                   Source: OIG analysis of State data and documents related to compliance with monitoring of background
                   screening requirements, 2012.


                   ACF did little to monitor how States were overseeing
                   CCDF providers
                   Federal law allows States to self-certify that their licensed and
                   license-exempt child care providers meet health and safety requirements in
                   three areas. For our review period (FYs 2010–2011), ACF did not require



Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                    16
                   States to describe how their licensing regulations covered these three areas
                   for licensed providers. ACF did require States to describe how they meet
                   health and safety requirements with regard to providers that are exempt
                   from licensing. All States met this requirement except Mississippi.
                   Mississippi failed to describe to ACF how it met health and safety
                   requirements for license-exempt providers. ACF did not identify this
                   failure by Mississippi and therefore did not require Mississippi to submit
                   health and safety requirements for license-exempt providers before the
                   State could receive CCDF block grant funding. ACF data from FY 2010
                   show that 23 percent of children receiving CCDF subsidies in Mississippi
                   are in license-exempt care.
                   States self-certify monitoring procedures to ACF. For our review period,
                   ACF asked States to describe, at a minimum, whether they enforce health
                   and safety requirements through routine unannounced site inspections,
                   through background screenings, and/or by requiring providers to report
                   serious injuries that occur while a child is in care. Six States submitted
                   descriptions of enforcement policies that lacked routine unannounced site
                   inspections, and two States lacked a requirement to report serious injuries.
                   ACF did not report to us whether it required these States to incorporate
                   such oversight into their monitoring procedures before they could receive
                   CCDF block grant funding.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   17
                   CONCLUSION AND RECOMMENDATIONS
                   Legislation governing the CCDF program allows States to establish their
                   own requirements related to (1) the prevention and control of infectious
                   diseases, (2) building and physical premises safety, and (3) minimum
                   health and safety training. States complied with the Federal requirement
                   to have health and safety requirements for licensed child care providers in
                   three basic areas. However, States’ requirements for monitoring licensed
                   providers did not always meet ACF’s recommendations for background
                   screenings and the recommended National Standards for unannounced
                   inspections. In the States we reviewed, monitoring was not conducted in
                   accordance with the States’ own requirements. ACF did little to monitor
                   how States were overseeing CCDF providers.
                   Many of our concerns are addressed in ACF’s NPRM issued on
                   May 20, 2013. We recommend that ACF consider the findings and
                   recommendations of this report when finalizing the proposed rule.
                   Specifically, we recommend that ACF:
                   Seek authority to develop health and safety standards and to
                   ensure that States’ requirements meet them
                   During the next reauthorization of the CCDBG Act and/or through
                   finalizing the proposed rule, ACF should use the recommended National
                   Standards to require States to meet minimum health and safety standards
                   for all CCDF providers. Only by requiring States to meet these standards,
                   either through licensing or through regulation, will ACF be able to protect
                   the health and safety of all children in the CCDF program.
                   Develop requirements for States to conduct mandatory
                   background screenings
                   We recognize that ACF has taken steps to encourage States to institute
                   comprehensive background screenings; however, some States are likely to
                   fall short in this area unless they are required to conduct these checks.
                   Mandatory comprehensive background screenings of both licensed and
                   license-exempt providers would better ensure that individuals caring for
                   vulnerable children did not themselves present risks to the safety and
                   well-being of those children.
                   Develop requirements for States to conduct periodic
                   unannounced inspections
                   Periodic unannounced inspections both of licensed and license-exempt
                   providers should enable States to better ensure that health and safety
                   standards are met by all providers receiving CCDF funds. ACF could




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   18
                   require States to conduct at least two inspections per year of each provider,
                   with at least one of the inspections being unannounced.
                   Conduct periodic reviews of States’ compliance with their own
                   requirements related to minimum health and safety standards
                   To ensure that States’ monitoring efforts provide for the health and safety
                   of all children in licensed settings, ACF should periodically assess States’
                   compliance with their own monitoring requirements.
                   Ensure that State plans comply with health and safety
                   requirements, and take action when States do not comply
                   We recognize that ACF’s review of State plans is an important part in
                   ensuring that States comply with statutory requirements. ACF needs to
                   ensure that, as a result of the review, States are brought into full
                   compliance with all requirements.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   ACF concurred with all five of OIG’s recommendations. ACF stated that
                   it has already taken initial steps towards meeting the recommendations
                   through its NPRM, which was published on May 20, 2013, and made
                   available for public comment through August 5, 2013.
                   In response to our first recommendation, ACF proposes to define health
                   and safety standards in areas where the regulations were previously silent.
                   ACF noted that having a clearly defined minimum standard for State
                   health and safety standards would make it much more feasible to monitor
                   State compliance with the requirement.
                   In response to our second recommendation, ACF states that the NPRM
                   requires that States’ standards include comprehensive criminal background
                   checks on child care providers that include use of fingerprints for both
                   State checks of criminal history records and FBI criminal history records,
                   as well as clearance through child abuse and neglect and sex offender
                   registries.
                   In response to our third recommendation, ACF stated that although the
                   NPRM would add new provisions, such as unannounced onsite monitoring
                   of all CCDF providers, it does not specify a frequency of monitoring.
                   Despite ACF’s recommendation that child care providers caring for
                   children receive an initial onsite monitoring visit and at least one annual
                   unannounced onsite monitoring visit, the rules will not meet the National
                   Standards until periodic unannounced inspections are required in every




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   19
                   State. ACF stated that it specifically requested public comment regarding
                   whether this recommendation should become a requirement.
                   In response to our fourth recommendation, ACF stated that it is exploring
                   options to conduct periodic reviews of States’ compliance. ACF hopes to
                   build on OIG’s approach and experience in conducting this study.
                   In response to our fifth recommendation, ACF stated that it uses the
                   biennial CCDF State Plans to ensure compliance with health and safety
                   requirements. ACF went on to say that it has strengthened its internal
                   control procedures for reviewing the FY 2014–2015 Plans by establishing
                   a new validation checklist to ensure all States comply with CCDF
                   requirements.
                   The full text of ACF’s comments is provided in Appendix C.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   20
                   APPENDIX A
                   Point Estimates and Confidence Intervals Based on Case File
                   Reviews
                   We calculated confidence intervals for key data points for the selected
                   States’ monitoring activities. The sample sizes, point estimates, and
                   95-percent confidence intervals are given for the each of the following:


                   Table A-1: Confidence Intervals for States’ Noncompliance in Conducting
                   Unannounced Inspections
                                              Unannounced                Sample               Point           95-Percent
                                                Monitoring                 Size            Estimate           Confidence
                    State
                                                 Inspection                            (percentage)              Interval
                                              Requirements
                    California                      Every 5 years               125                   n/a                  n/a

                                     Every 4 months for centers;
                    Florida            every 6 months for family                 61                10.3%         3.5%–17.2%
                                                         homes

                    Illinois                             Annually               125                81.6%       75.9%–87.2%

                    Ohio                                 Annually               125                25.6%       18.6%–32.6%

                                           Annually for centers;
                    Texas                every 2 years for family               125                 0.4%          0.1%–3.0%
                                                          homes
                   Source: OIG analysis of State data and documents related to inspection requirements and compliance, 2012.




                   Table A-2: Confidence Intervals for States’ Deficiencies
                                                         Sample                 Point                     95-Percent
                    Data Element
                                                           Size              Estimate             Confidence Interval
                    Description
                                                                         (percentage)
                    Providers cited for at least
                                                                561                   62.5%                    58.1%–66.7%
                    one deficiency
                    Providers cited for more
                                                                561                   11.1%                      8.7%–13.5%
                    than 10 deficiencies
                    Providers cited for at least
                    one deficiency related to                   561                   22.3%                    18.8%–25.9%
                    background screenings
                   Source: OIG analysis of State data and documents related to inspection requirements and compliance, 2012.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                   21
                   Table A-3: Confidence Intervals for States’ Compliance Conducting
                   Background Screening Reviews
                                        Inspection Types
                                           During Which                                         Point           95-Percent
                                                                          Sample
                    State                   Monitoring of                                    Estimate           Confidence
                                                                            Size
                                   Background Screening                                  (percentage)              Interval
                                             Is Required
                                          Prelicensing inspections,
                                             annual/random/5-year
                    California                         inspections,              125                  7.5%         3.5%–11.4%
                                            followup inspections (if
                                                          pertinent)

                                      License renewal inspections
                                                    (all individuals),
                    Florida                                                        61                11.0%         4.1%–17.8%
                                          routine inspections (new
                                                          employees)

                                       Every unannounced annual
                    Illinois                                                     125                 13.1%         7.3%–18.9%
                                                      inspection

                                             All inspections except
                    Ohio                  inspections for a specific             125                  8.4%         4.0%–12.9%
                                                           purpose

                    Texas                            Any inspection              125                 20.3%       13.8%–26.9%
                    Source: OIG analysis of State data and documents related to compliance with requirements for monitoring of
                    background screening, 2012.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                   22
                                               APPENDIX B
                                               State-Reported Specific Requirements
                                               Table B-1: Background Screening Sources for Licensed Center-Based
                                               Providers
                                                                                                          Background Screening Type
                        State Criminal




                                                              Sex Offender
                                                Child Abuse
                                                 Registry

                                                                Registry
 State
                                         FBI




                                                                             Other




 Alabama                X                          X
 Alaska                 X                X         X             X
 Arizona                X                X
 Arkansas               X                X         X
 California             X                X         X             X
 Colorado               X                          X             X
 Connecticut            X                X         X
 Delaware               X                X         X             X
 District of Columbia   X                X         X             X
 Florida                X                X         X             X
 Georgia                X                X
 Hawaii                 X                X         X             X
 Idaho                  X                X         X             X
 Illinois               X                X         X             X
 Indiana                X                X         X             X
 Iowa                   X                X         X             X
 Kansas                 X                X         X
 Kentucky               X                          X             X
                                                                             State Central Registry if the individual discloses or it becomes known that the individual is recorded on the State central
 Louisiana              X
                                                                             registry.
 Maine                  X                          X                         Motor vehicle records.
 Maryland               X                X         X
 Massachusetts          X                          X
 Michigan               X                X         X             X           FBI fingerprint background checks are required for directors and owners.
 Minnesota              X                          X                         FBI and juvenile records are reviewed when there is a reasonable cause.
 Mississippi            X                X         X             X
 Missouri               X                          X             X
                                                                             Department of Motor Vehicles. Tribal checks are conducted if the individual has lived on a reservation within the last
 Montana                X                X         X
                                                                             5 years. FBI checks are conducted only if individual has lived out of State in the last 5 years.
 Nebraska                                          X                         Adult Protective Services Central Registry.
 Nevada                 X                X         X
 New Hampshire          X                X         X             X
 New Jersey             X                X         X             X
 New Mexico             X                X                       X           Job references, personal references.
 New York               X                          X                         References on each employee.
 North Carolina         X                X                       X
 North Dakota           X                X         X             X
 Ohio                   X                X
 Oklahoma               X                          X             X           Child Abuse Registry check required for owners only. Other checks—Child Care Restricted Registry.
 Oregon                 X                X         X                         Sex offenders are identified through criminal background check.
 Pennsylvania           X                X         X
 Rhode Island           X                X         X
 South Carolina         X                X         X             X
 South Dakota           X                          X             X
 Tennessee              X                X         X             X           State Vulnerable Persons Registry.
 Texas                  X                X         X             X
 Utah                   X                X         X                         In Utah the Sex Offender Registry is a secondary source of information. Utah checks the primary source.
 Vermont                X                          X                         Adult Abuse Registry.
                                                                             Sworn statement disclosing criminal charges and convictions and founded child abuse/neglect complaints inside and
 Virginia               X                          X
                                                                             outside Virginia.
 Washington             X                X         X             X           FBI fingerprints are currently done on potential providers if they have lived 3 years or less in the State.
 West Virginia          X                X         X
 Wisconsin              X                          X             X           Other professional licenses; child abuse and neglect information maintained by the department; Nurse Aide Registry.
                                                                             A prescreening is conducted using the Child Abuse Registry in Division of Criminal Investigation (DCI), and if warranted,
 Wyoming                                           X             X
                                                                             a fingerprint check through DCI is required.
   Total                49     35                 45            28
Source: OIG survey of States, 2011.




             Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                                                     23
                                                Table B-2: Background Screening Sources for Licensed Family Home Child
                                                Care Providers
                                                                                                        Background Screening Type


                         State Criminal




                                                               Sex Offender
                                                 Child Abuse
                                                  Registry

                                                                 Registry
 State
                                          FBI
                                                                              Other




 Alabama                 X                X         X
 Alaska                  X                X         X             X
 Arizona                 X                X         X
 Arkansas                X                X         X             X
 California              X                X         X             X
 Colorado                X                          X             X
 Connecticut             X                X         X
 Delaware                X                X         X             X
 District of Columbia    X                X         X             X
 Florida                 X                X         X             X
 Georgia                 X                X         X
 Hawaii                  X                X         X             X
 Idaho                   X                X         X             X
 Illinois                X                X         X             X
 Indiana                 X                X         X             X           FBI background check is required for the licensee only.
 Iowa                    X                          X             X           May check dependent adult abuse registry.
 Kansas                  X                          X
 Kentucky                X                          X             X
 Louisiana               X
 Maine                   X                          X                         Bureau of Motor Vehicles check.
 Maryland                X                X         X
 Massachusetts           X                          X
                                                                              FBI fingerprint background checks are required for providers. State background checks are required for all
 Michigan                X                X         X             X
                                                                              employees and household members 18 years and older.
 Minnesota               X                          X                         FBI and juvenile records are reviewed when there is a reasonable cause.
 Mississippi             X                X         X             X
 Missouri                X                          X             X
                                                                              Department of Motor Vehicles. Tribal checks are conducted if the individual has lived on a reservation within the
 Montana                 X                X         X
                                                                              last 5 years. FBI checks are conducted only if individual has lived out of State in the last 5 years.
 Nebraska                                           X                         Adult Protective Services Central Registry.
 Nevada                  X                X         X
 New Hampshire           X                X         X             X
 New Jersey                                         X                         Criminal conviction self-disclosure.
 New Mexico              X                X         X
 New York                X                          X                         References.
 North Carolina          X                X                       X
 North Dakota            X                X         X             X
 Ohio                    X                X
                                                                              Child Abuse Registry check required for owners and adults signing the application only. Other checks—Child Care
 Oklahoma                X                          X             X
                                                                              Restricted Registry.
 Oregon                  X                X         X                         Sex offenders are identified through criminal background check.
 Pennsylvania            X                X         X
 Rhode Island            X                X         X
 South Carolina          X                X         X             X
 South Dakota            X                X         X             X
 Tennessee               X                X         X             X           State Vulnerable Persons Registry.
 Texas                   X                          X             X
 Utah                    X                X         X
 Vermont                 X                          X                         Adult Abuse Registry.
                                                                              Sworn statement disclosing criminal charges and convictions and founded child abuse/neglect complaints inside
 Virginia                X                          X
                                                                              and outside Virginia.
 Washington              X                X         X             X           FBI fingerprints are currently done on potential providers if they have lived 3 years or less in WA.
 West Virginia           X                X         X             X
                                                                              Other professional licenses; child abuse and neglect information maintained by the department; Nurse Aide
 Wisconsin               X                          X             X
                                                                              Registry.
                                                                              A prescreening is conducted using the Child Abuse Registry in Division of Criminal Investigation (DCI), and if
 Wyoming                                            X             X
                                                                              warranted, a fingerprint check through DCI is required.
   Total                48     33                  48            28
Source: OIG survey of States, 2011.




               Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                                                  24
                                             Table B-3: Types of Individuals Subject to Background Screenings in Licensed
                                             Center-Based Child Care Providers
                                                                                                                       Individual Type




                                               Child Care Staff

                                                                  Transportation

                                                                                   Janitorial
                        Directors

                                    Owners
 State
                                                                                                Other




 Alabama                X           X          X                  X                X
 Alaska                 X           X          X                  X                X            Individuals specified in Alaska State Code 7 AAC 10.900(b).
 Arizona                X           X          X                  X                X
 Arkansas               X           X          X                  X                X
 California             X           X          X                  X                             Any person who provides care and supervision.
 Colorado               X                      X                  X                X
 Connecticut            X                      X
 Delaware               X           X          X                  X                X
 District of Columbia   X           X          X                  X                X
 Florida                X           X          X                  X                X
 Georgia                X                      X                  X                X
 Hawaii                 X           X          X                                                Any individuals used to meet the staff/child ratios.
 Idaho                  X           X          X                  X                X            All individuals 13 and older who have direct contact with children.
 Illinois               X                      X                  X                X            Any person who has unsupervised access to children.
 Indiana                X                      X                  X                X
                                                                                                Anyone used to meet the staff/child ratio; anyone with access to, or left alone with, child; anyone
 Iowa
                        X                      X                  X                             14 or older living in the facility.
 Kansas                 X           X          X                  X                X            All individuals over 10 years of age residing or working at the facility.
 Kentucky               X           X          X                  X                X
 Louisiana              X           X          X                  X                X            Each paid and nonpaid staff person.
 Maine                  X           X          X                  X
 Maryland               X           X          X                  X
 Massachusetts          X           X          X                  X                             Interns and anyone with the potential for unsupervised contact with children.
 Michigan               X           X          X
 Minnesota              X           X          X
 Mississippi            X           X          X                  X                X
 Missouri               X           X          X                  X                X
                                                                                                Background checks required for administrative staff, aides, kitchen staff, and all persons over the
 Montana
                        X           X          X                  X                X            age of 18 who reside or stay at the facility regularly or frequently.
 Nebraska               X           X          X                  X                X            Owners only if working directly with children.
 Nevada                 X           X          X                  X
 New Hampshire          X           X          X                                                All child care personnel—anyone who has regular/daily contact with children.
 New Jersey             X           X          X                  X                X
 New Mexico             X           X          X                  X
 New York               X           X          X                  X                X            All employees who have regular and substantial contact with children.
 North Carolina         X           X          X                  X                X
 North Dakota           X           X          X                  X                X            All positions require at least some level of background check.
 Ohio                   X           X          X                  X                X            All center staff.
 Oklahoma               X           X          X                  X                             Others with unsupervised access to children.
 Oregon                 X           X          X                  X                X
 Pennsylvania           X           X          X                                                An employee who works with children and is used to meet staff/child ratio must have clearances.
 Rhode Island           X           X          X                  X                X            Consultants and anyone coming in regular contact with children.
 South Carolina         X                      X                  X                X            Owners are required to undergo background screening if they work within the facility.
                                                                                                Owners who work at the center; employees who have contact with children or who are used to meet
 South Dakota
                        X           X          X                                                the staff/child ratio.
 Tennessee              X           X          X                  X                             Based upon determination of any individual’s access to children.
                                                                                                A name-based criminal history check and a Department of Family and Protective Services Central
 Texas
                        X           X          X                  X                X            Registry check for each person employed at the operation.
 Utah                   X           X          X                  X                X            Assistant Directors, substitutes, and members of the governing body.
 Vermont                X           X          X                  X
                                                                                                Anyone involved in the day-to-day operation or alone with, in control of, or supervising one or more
 Virginia
                        X           X          X                                                children.
                                                                                                All staff must have a background check, and the person applying for the license must have a
 Washington
                        X       X              X                  X                X            background check.
 West Virginia          X       X              X                  X                X
 Wisconsin              X       X              X                  X                X            Any person who meets the statutory definition of a caregiver.
 Wyoming                X       X              X                  X                X
   Total                51     44              51                 43               33
Source: OIG survey of States, 2011.




             Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                                                                25
                        Table B-4: Types of Individuals Subject to Background Screenings in Licensed
                        Family Home Child Care Providers
                                                                                                        Individual Type




                                                     Those Living in
                                     Family Member


                                                       Residence
                          Provider
 State
                                                                       Other




 Alabama                  X                              X             Adult family members; and adults living in residence.
 Alaska                   X          X                   X             Individuals specified in Alaska State Code 7 AAC 10.900(b).
 Arizona                  X          X                   X
 Arkansas                 X          X                   X
 California               X          X                   X             Any person who provides care and supervision.
 Colorado                 X                              X
 Connecticut              X          X                   X
 Delaware                 X          X                   X             Volunteers, substitutes, and others with direct access.
 District of Columbia     X          X                   X
 Florida                  X          X                   X             Volunteers working 10 or more hours per month in home or left to supervise children.
 Georgia                  X          X                   X
 Hawaii                   X          X                   X             All household members over 18 years old.
 Idaho                    X          X                   X             All individuals 13 and older who have direct contact with children.
 Illinois                 X          X                   X             Members of the household who are age 13 years or older.
 Indiana                  X          X                   X             Volunteers.
 Iowa                     X          X                   X             Substitutes; anyone over 14 living in the residence.
 Kansas                   X          X                   X             All individuals over 10 years of age living, working, or volunteering at the facility.
 Kentucky                 X          X                   X
                                                                       All adults living at the provider’s residence or employed by the provider in their home or on their
 Louisiana
                          X          X                   X             property.
 Maine                    X          X                   X             Anyone frequenting the home.
 Maryland                 X          X                   X             Paid substitutes and the additional adult if caring for three to four infants.
 Massachusetts            X          X                   X             For individuals regularly on the premises.
 Michigan                 X          X                   X
 Minnesota                X          X                   X             When there is reasonable cause, individuals who may have unsupervised access to children.
 Mississippi              X          X                   X
 Missouri                 X          X                   X
                                                                       Background checks required for administrative staff, aides, volunteers, kitchen staff, and all persons
 Montana
                          X          X                   X             over the age of 18 who reside or stay at the facility regularly or frequently.
 Nebraska                 X                              X
 Nevada                   X          X                   X
 New Hampshire            X          X                   X             Anyone who has regular/daily contact with children.
 New Jersey               X                              X
 New Mexico               X          X                   X             Any person over the age of 18 and spouse of the provider.
 New York                 X          X                   X             Volunteers.
 North Carolina           X          X                   X
 North Dakota             X          X                   X
 Ohio                     X          X                   X
 Oklahoma                 X          X                   X
 Oregon                   X          X                   X
                                                                       Household members age 18 and over who reside in the family home 30 or more days in the calendar
 Pennsylvania
                          X                              X             year.
 Rhode Island             X                              X             Anyone having routine contact with children (volunteers, drivers, consultants).
 South Carolina           X          X                   X
 South Dakota             X          X                                 Any adult living in the home who has contact with the children in care.
 Tennessee                X          X                   X
 Texas                    X          X                   X             Each household member who is 14 years or older and who will regularly or frequently be present.
 Utah                     X          X                   X             Substitutes and volunteers.
 Vermont                  X          X                   X
 Virginia                 X          X                   X
 Washington               X          X                   X
 West Virginia            X          X                   X
                                                                       Any volunteer, substitute or other person meeting the definition of a "caregiver" is required to have a
 Wisconsin
                         X       X                      X              caregiver background check.
 Wyoming                 X       X                      X
   Total                51      44                      51
Source: OIG survey of States, 2011.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                                                     26
                     Table B-5: Unannounced Inspections for Licensed Center-Based Child
                     Care Providers
                                                                                         Interval




                                     Frequent
                          Annually



                                      or More
                                      Every 6
                                      Months
   State
                                                Other Frequency


   Alabama                                      Every 2 years.
   Alaska                 X                     All complaint investigation inspections are unannounced.
   Arizona                X                     To follow up on complaints and previous compliance issues.
   Arkansas                                X
   California                                   Not less than once every 5 years.
   Colorado                                     Inspections occur, on average, every 2 years.
   Connecticut                                  At least every 2 years.
   Delaware               X                     As needed to inspect condition of the facility.
   District of Columbia   X                     Additional unannounced visits are made as part of a followup to a complaint.
   Florida                                 X
   Georgia                                 X
   Hawaii                 X                     To conduct complaint investigations and to monitor as a result of corrective action plans.
   Idaho                             N/A
   Illinois               X
   Indiana                X
   Iowa                   X
   Kansas                 X
   Kentucky               X                     At time of application.
   Louisiana              X                     During compliance visits, after construction or renovation, and in response to complaints.
   Maine                  X
   Maryland               X
   Massachusetts                                Complaint investigation or monitoring.
   Michigan               X
   Minnesota                                    Every 2 years, and unannounced visits are made for licensing complaint investigations.
   Mississippi                             X    Complaint investigations.
   Missouri                                X
   Montana                X                     Facilities may receive inspections every 1-3 years depending on the type of license.
                                                Conducted annually for centers licensed for fewer than 30 children; every 6 months for those licensed for
   Nebraska               X                X
                                                30 or more children.
   Nevada                                  X
   New Hampshire          X                     More often if needed (e.g., in response to a complaint).
   New Jersey             X
   New Mexico                              X
   New York                                     As needed for monitoring, complaints, and child abuse reports.
   North Carolina         X
   North Dakota           X                     At least annually, more frequently if concerns exist.
   Ohio                   X                     At the receipt of complaints and for monitoring as needed.
   Oklahoma                                X
   Oregon                 X
   Pennsylvania                                 Each licensor must conduct six allocated unannounced inspections each year.
   Rhode Island                            X    To follow up on any complaints received against a provider.
   South Carolina                          X    Investigations of complaints.
   South Dakota           X                     Additional visits are made to verify correction of noncompliance or to address complaints.
   Tennessee                               X
   Texas                  X                     Other inspections can be announced or unannounced.
   Utah                   X                     Followup inspections and complaint investigations are conducted mostly unannounced as needed.
   Vermont                X                     When a complaint is received.
   Virginia                                X
   Washington                                   Followup visits are made to respond to complaints and to ensure that compliance issues have been resolved.
   West Virginia          X
                                                For child care centers licensed to care for 50 or fewer children or operating part-day programs at least
   Wisconsin              X                X    1 unannounced visit per year is conducted. For full-day child care programs licensed to care for 51 or more
                                                children at least 2 unannounced visits per year are conducted.
   Wyoming                 X
     Total                29        14
  Source: OIG survey of States, 2011.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                               27
         Table B-6: Unannounced Inspections for Licensed Family Home Providers
                                                                                                   Interval




                                           Every 6 Months

                                              Frequent
                                Annually


                                               or More
         State
                                                            Other Frequency




         Alabama                                            Every 2 years.
         Alaska                 X                           All investigations inspections are unannounced as well.
         Arizona                X
         Arkansas                               X           Unannounced visits three times per year.
         California                                         Not less than once every 5 years.
         Colorado                                           Visits occur, on average, every 2 years.
         Connecticut                                        One-third of licensed family day care homes must be inspected annually.
         Delaware               X
         District of Columbia   X                           Additional unannounced visits are made as part of a followup to a complaint.
         Florida                                X           Does not include unannounced complaints and unannounced inspections.
         Georgia                                X           Additional visits are made if necessary.
         Hawaii                  X                          For complaint investigations and for monitoring as a result of corrective action plans.
         Idaho                  N/A
         Illinois                X
         Indiana                                            Every other year; alternates with the announced visits.
         Iowa                                               Monitoring target of 40%.
         Kansas                  X
         Kentucky                X                          At time of application.
         Louisiana              N/A
         Maine                   X
         Maryland                X
         Massachusetts                                      Complaint investigation or monitoring.
         Michigan                                           10% of family homes are inspected at time of renewal.
         Minnesota                                          County agencies typically make unannounced visits to conduct investigations.
         Mississippi                            X           Complaint investigations.
         Missouri                               X
         Montana                                            Required to inspect 20 percent of all family and group child care providers annually.
         Nebraska               X
         Nevada                                 X
         New Hampshire          X                           More often if needed (e.g., in response to a complaint).
         New Jersey                                         Unannounced complaints, monitoring, and reinspections.
         New Mexico             X                           Follow up to deficiencies.
         New York                                           As needed for monitoring, complaints, and child abuse reports.
         North Carolina         X
         North Dakota           X                           At least annually, more frequently if concerns exist.
         Ohio                   X
         Oklahoma                               X
         Oregon                                             Complaint investigation; compliance verification
                                                            Inspections are done on a random sample basis, upon complaint, at the request of the operator, or for
         Pennsylvania
                                                            correction of regulatory violations.
         Rhode Island                                       Once every 2 years and as a part of followup when a complaint is received.
         South Carolina                         X           Investigations of complaints.
                                                            Once every 2 years with additional visits to ensure correction of noncompliance or to address
         South Dakota
                                                            complaints.
         Tennessee                              X           Each agency receives a minimum of four to six unannounced visits each year.
         Texas                                              Once every 2 years; frequency is based on compliance history.
                                                            All necessary followup inspections and complaint investigations are conducted mostly unannounced
         Utah                   X
                                                            as needed.
         Vermont                                            Every 3 years and when a complaint is received.
         Virginia                        X
         Washington                                         To respond to complaints and to ensure that compliance issues have been resolved.
         West Virginia          X
         Wisconsin              X
         Wyoming                         X
           Total                19      10
        Source: OIG survey of States, 2011.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                                                        28
                   APPENDIX C
                   Agency Comments




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   29
Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   30
Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   31
             Page4



             Again, ACF apprec:iales lhe opportunity to provide comments on the draft repon and welcomes
             any further qDestiODs that OIG may have regarding these issues. Please direct my follow-up
             inquines to our Office of Legislative Affairs and Budget OIG liaison, Scott Logan at (202) 401·
             4529.

                                                         Sill(erely,

                                                            /S/
                                                         GeG~~ge   H. Sheldon
                                                         Aotrng Assistant Secretary
                                                         tcr Children and Families




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)                 32
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Brian T. Whitley, Acting
                   Regional Inspector General for Evaluation and Inspections in the Kansas
                   City regional office.
                   Teresa Dailey served as the project leader for this study. Other Office of
                   Evaluation and Inspections staff from the Kansas City regional office who
                   conducted the study include Brian T. Pattison and Dennis Tharp. Central
                   office staff who provided support include Kevin Farber, Christine Moritz,
                   Debra Roush, Talisha Searcy, and Sherri Weinstein. Office of Counsel to
                   the Inspector General staff who provided support included
                   Diana Merelman.




Child Care and Development Fund: Monitoring of Licensed Child Care Providers (OEI-07-10-00230)   33
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
